                               NATIONAL SCIENCE FOUNDATION
                                   4201 WILSON BOULEVARD
                                  ARLINGTON. VIRGINIA 22230




    OFFICE OF                          September 22,2000
INSPECTOR GENERAL



  TO:               The File

  FROM:




     m,
  SUBJECT:          Case Closeout, #I-00070001




       rograrn ssistant,
      documents to NSF.                re ate
                                                m
  1. This case was o ened on June 12 2000 based on information
                                                     in t    hreceived
                                                                    a fro d

                                                        ay have su mi e
                                                 e o owing information:
                                                                               a si ed
                                                                                             r




                   was terminated from her government osition with NSF on August 20,



                                                                           a
     ot-             repeated instances of AWOL.              filed a grievance and obtained
       union representation. On June 8-9,2000, an arbitration hearing w s held at which
       time new evidence, previously unknown to                                         testified
       that she had been suffering from a disability.            also testi led t at s e was not
       hospitalized for cocaine abuse in 1998, but                             for depression in
        1998. Medical documentation obtained by OGC contradicts this testimony and
       reflects that work time had been lost because of drug use, not depression.




  2. 1 obtained thew
                   ega-                                     reports fo
                                                                           a
     covering the period August 1, 1998 to August 1, 1999. The reports reflect fe era1
     employment for this period. There is no other record of employment.

      I called-ht                     clinics at the following locations: Marlow Heights,




                                                               e did not have a record of
                                                                RN was reflected on one of
the Verification of Treatrn t forms). Clinic personnel at t h e c l i n i c
advised that a                 s employed at that location.
             -

                  2000, I referred this case
                 Eastern District of

investigation is closed
